                                                  United States Attorney’s Office
                                                  District of Columbia

                                                  Jeffrey A. Taylor
                                                  United States Attorney

                                PRESS RELEASE
FOR IMMEDIATE RELEASE                             USAO Public Affairs
Tuesday, January 29, 2008                         (202) 514-6933
                                                  www.usdoj.gov/usao/dc

 FAA Aviation Safety Inspector Pleads Guilty to Theft of Government
   Money in Connection with Fraudulently Claimed Military Leave
  -- Aviation Safety Inspector claimed he was a member of the D.C. Air National Guard --

        Washington, D.C. - Emilio Estrada, a 46-year-old FAA Aviation Safety Inspector,
has pleaded guilty to Theft of Government Money for defrauding the Federal Aviation
Administration (FAA) of $24,432.08 through a scheme in which he falsely claimed
military leave, U.S. Attorney Jeffrey A. Taylor announced today.

        Estrada, of Clinton, Maryland, entered his plea of guilty earlier today in U.S.
District Court before the Honorable Richard J. Leon in connection with the theft from the
FAA, located at 800 Independence Avenue, SW, Washington, D.C. Estrada faces a
statutory sentence of up to 10 years in jail and a fine of $250,000. Under the U.S.
Sentencing Guidelines, he faces a maximum prison sentence of up to 6 months. The
sentencing is scheduled for April 25, 2008.

        According to information provided to the Court by Assistant U.S. Attorney Sherri
L. Schornstein, beginning in 2000 and continuing until approximately July 2006, Estrada
requested military leave from the FAA and was approved for and used military leave on
approximately 19 different occasions. Prior to 1991, Estrada had been a member of the D.C. Air
National Guard Bureau (DCANG). He separated from the DCANG on December 8, 1991. At
the time of his military separation he was a Technical Sergeant. Estrada was not a member of
the military at any time thereafter.

       Every time Estrada requested and used military leave, he signed and submitted three
fraudulent forms: Military Orders; a Request and Authorization for TDY (temporary duty)
Travel For DOD (Department of Defense) Personnel; and a Time Attendance Sheet. The cost to
the FAA of the military leave wrongly claimed by Estrada was approximately $24,432.28.
Estrada made full restitution to the FAA in advance of the plea proceedings.

       In announcing the guilty plea, U.S. Attorney Taylor, commended the work of
Special Agent Bruce Quintero, U.S. Department of Transportation, Office of Inspector
General, and
and the staff of the U.S. Attorney’s Office, including Legal Assistant Lisa Robinson and
Assistant U.S. Attorney Sherri L. Schornstein, who is prosecuting the case.
         ###
08-027
